33nfteit jifefes (Kmirf of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
March 17, 2021
Before
DIANE S. SYKES, ChiefJudge
MICHAEL S. KANNE, Circuit Judge
AMY J. ST. EVE, Circuit Judge
No. 19-1622
UNITED STATES OF AMERICA,
Plaintiff-Appellee,

Appeal from the United States District
Court for the Southern District of
Indiana, Indianapolis Division.

v.
No. 16-cr-00001
DUPRECE JETT,
Defendant-Appellant.

Tanya Walton Pratt,

Judge.

ORDER
On consideration of the petition for rehearing and rehearing en banc filed on
March 2,2021, no judge in regular active service has requested a vote on the motion for
rehearing en banc and the judges on the original panel have voted to deny rehearing. It
is, therefore, ORDERED that the petition for rehearing and rehearing en banc is
DENIED.

Case: 19-1622

Document: 61

Filed: 12/15/2020

Pages: 15

H(n

Unitett jifaii'S Court of Apprab
3fcr

jiciimtlj Circuit

Nos. 19-1622 & 19-1673
United States of America,
Plaintiff-Appellee,
v.
Duprece Jett and Damion McKissick,
Defendants-Appellants.

Appeals from the United States District Court for the
Southern District of Indiana, Indianapolis Division.
No. l:16-cr-00001 — Tanya Walton Pratt, Judge.

Argued October 27,2020 — Decided December 15,2020

Before Sykes, Chief Judge, and Kanne and St. Eve, Circuit
Judges.
St. Eve, Circuit Judge. A jury convicted Duprece Jett and
Damion McKissick of Hobbs Act conspiracy and attempted
robbery. In a previous appeal, we reversed the defendants' at­
tempted-robbery convictions and remanded for resentencing
on the conspiracy count. United States v. Jett, 908 F.3d 252 (7th
Cir. 2018). The defendants now appeal from their resen­
tencings. They claim the district court erred under the

Case: 19-1622

Document: 61

Nos. 19-1622 & 19-1673

Filed: 12/15/2020

Pages: 15

3

intimidation/' id. § 2113(a). The government alleged four
"overt acts" for Count 1: the three completed robberies and
the attempted robbery that preceded the defendants' arrest.
Before trial, the defendants moved for a special verdict form
requiring the jury to find unanimously that the defendants
had committed one of the overt acts, and to agree on which
overt act they had committed. The district court denied the
motion.
At trial, the government introduced a range of evidence,
including: surveillance footage of the three robberies; text
messages between Jett and McKissick from the night before
the attempted robbery; cell-tower data placing the defendants
near the robberies; testimony that the bright orange vests that
the robbers wore during the first robbery matched Jett's work
clothes; evidence of burnt items found at McKissick's home,
including ski masks, gloves, and a backpack, all of which
matched the robbers' gear; evidence that the defendants'
DNA was found on a ski mask, backpack, and airsoft pistol
recovered from the stolen car that McKissick and Walker had
used to flee from officers; incriminating statements that
McKissick made at the police station; and an incriminating
phone call between McKissick and his wife. The government
did not produce an eyewitness who could identify Jett or
McKissick as the robbers. The jury convicted the defendants
on both counts.
B. Initial Sentencings
Following their convictions at trial, the district court sen­
tenced Jett and McKissick to 293 months' imprisonment.
McKissick received 203 months on Count 1 and 90 months on
Count 2, to run consecutively for a total of 293 months. Jett
received 209 months on Count 1 and 84 months on Count 2,

Case: 19-1622

Document: 61

Filed: 12/15/2020

Nos. 19-1622 & 19-1673

Pages: 15

. 5

argument that the district court erred in refusing to instruct
the jury on overt acts because "a Hobbs Act conspiracy does
not have an overt-act requirement." Id. at 265. We remanded
with instructions for the district court to enter a judgment of
acquittal on Count 2 and resentence the defendants. Id. at 276.
Like the district court, we remarked at various times on
the strength of the evidence against Jett and McKissick at trial.
We did so, for example, when rejecting the defendants' argu­
ment that the admission of certain expert testimony required
a new trial:
The evidence against Jett and McKissick on
Count 1 was plenty persuasive without [the ex­
pert's] interpretation of the text messages. The
government needed only to prove that they con­
spired to commit bank robbery, and it admitted
surveillance footage that a jury could easily con­
clude showed Jett and McKissick actually com­
mitting the bank robberies together. Cell-phone
data further confirmed that both men were in
the area of the check-and-cash locations around
the times they were robbed. The government
also introduced evidence of burned items
matching what the robbers used at McKissick's
home and McKissick's incriminating statements
at the stationhouse.
Id. at 267.
D. Resentencings
On remand for resentencing on Count 1, a probation of­
ficer calculated the defendants' advisory Guidelines ranges as
188 to 235 months. Although Count 2 was gone, the probation

Case: 19-1622

Document: 61

Nos. 19-1622 & 19-1673

Filed: 12/15/2020

Pages: 15

7

reasonable doubt, and very strong direct and circumstantial
evidence of Mr. Jett's participation in the conspiracy and all
of these acts in the conspiracy." It then summarized the trial
evidence. Because "the evidence at trial was sufficient to show
that Mr. Jett and Mr. McKissick and Mr. Walker were co-con­
spirators in these—in the conspiracy," the court overruled
Jett's grouping objection. The court similarly overruled
McKissick's grouping objection and found that the evidence
supported his commission of each conspiracy: "[CJlearly, the
evidence supports a conspiracy of the three robberies which
were completed, as well as the conspiracy to commit a fourth
robbery/'
After overruling the defendants' objections, the court
adopted the probation officer's recommended advisory
Guidelines range of 188 to 235 months for both defendants.
Jett asked the court to sentence him "within the sentencing
guidelines, at the low end, where he would have been sen­
tenced—or where he was sentenced the last time." McKissick
asked for a within-Guidelines sentence.
The court sentenced both defendants to 230 months' im­
prisonment on Count 1. The court's explanation for the de­
fendants' new sentences was essentially the same as its expla­
nation for the defendants' first sentences. Both times, the
court referenced various § 3553(a) factors but focused heavily
on the seriousness of the offenses and the defendants' crimi­
nal histories and personal characteristics.
At Jett's resentencing, the court remarked yet again on the
strength of the evidence, saying, "the Court is 100 percent cer­
tain that Mr. Jett conspired with Mr. McKissick and Walker
and participated in these acts, these crimes. And the Court is
confident of his participation and involvement in the three

Case: 19-1622

Document: 61

Filed: 12/15/2020

Nos. 19-1622 & 19-1673

Pages: 15

9

Particular care must be taken in applying sub­
section (d) because there are cases in which the
verdict or plea does not establish which offense(s) was the object of the conspiracy. In such
cases, subsection (d) should only be applied
with respect to an object offense alleged in the
conspiracy count if the court, were it sitting as a
trier of fact, would convict the defendant of con­
spiring to commit that object offense.
USSG § 1B1.2, comment. (n.4). When adding § 1131.2(d) and
the application note to the Guidelines in 1989, the Sentencing
Commission explained that § 1131.2(d) requires a judge to
make findings beyond a reasonable doubt. USSG App. C,
Vol. I, 1 75. The rationale was that "[a] higher standard of
proof should govern the creation of what is, in effect, a new
count of conviction." Id.
We have not previously addressed whether USSG
§ 1131.2(d) requires a sentencing judge to apply the reasona­
ble-doubt standard. Every other circuit to address the issue
has held that it does. United States v. Jones, 699 F. App'x 325,
326 (5th Cir. 2017) (per curiam); United States v. Bradley, 644
F.3d 1213, 1300 (11th Cir. 2011); United States v. Robles, 562
F.3d 451,455 (2d Cir. 2009) (per curiam); United States v. Smith,
267 F.3d 1154, 1160 (D.C. Cir. 2001); United States v. Jackson,
167 F.3d 1280, 1285 (9th Cir. 1999); United States v. Conley, 92
F.3d 157,168 (3d Cir. 1996).
We join those circuits today and hold that USSG § 1131.2(d)
requires a sentencing judge to use the reasonable-doubt
standard, and not merely the preponderance-of-the-evidence
standard, to decide if a defendant conspired to commit each
"object offense" of the conspiracy. Application Note 4 to

Case: 19-1622

Document: 61

Nos. 19-1622 & 19-1673

Filed: 12/15/2020

Pages: 15

11

The district court's Guidelines error was harmless because
the court made clear that it would have imposed the same
sentence on each defendant even if the higher reasonabledoubt standard applied. The court said so explicitly for Jett,
commenting at his resentencing that there was "evidence be­
yond a reasonable doubt ... of Mr. Jett's participation in the
conspiracy and ajl of these acts in the conspiracy," such that
"the conduct for the entirety of the conspiracy" was covered
under § lB1.2(d). At the same hearing, the court said it was
"100 percent certain that Mr. Jett conspired with Mr.
McKissick and Walker and participated in these acts, these
crimes." The court's comments leave no doubt that it would
have applied the same grouping analysis for Jett if it had cor­
rectly found that § lB1.2(d) requires the reasonable-doubt
standard.
The same holds true for McKissick, even though the court
never explicitly said that there was evidence beyond a reason­
able doubt that he had committed all four conspiracies. The
court commented repeatedly at the defendants' initial sen­
tencing hearings and at their resentencings on the strength of
the evidence against McKissick. At McKissick's initial sen­
tencing, the court said it had "no doubt, whatsoever, that Mr.
McKissick was the robber that was identified" at trial. At his
resentencing, the court found that "clearly, the evidence sup­
ports a conspiracy of the three robberies which were com­
pleted, as well as the conspiracy to commit a fourth robbery."
Finally, the court commented at Jett's resentencing that it was
"100 percent certain that Mr. Jett conspired with Mr. McKissick
and Walker and participated in these acts, these crimes." (Em­
phasis added).

Case: 19-1622

Document: 61

Nos. 19-1622 & 19-1673

Filed: 12/15/2020

Pages: 15

13

552 U.S. 38, 50 (2007). "[I]t is not our role to justify a sentence
that lacks a sufficient explanation with our best guess for why
the court imposed the sentence that it did." United States v.
Titus, 821 F.3d 930, 935 (7th Cir. 2016).
Again, the parties dispute whether plain-error or de novo
review applies. We need not resolve this dispute because
there was no error, let alone plain error.
The defendants rely on our recent decision in United States
v. Ballard, 950 F.3d 434 (7th Cir. 2020), for the proposition that
a district court must explain a difference between an initial
sentence and subsequent sentence on the same count. In Bal­
lard, we held that the district court "committed procedural er­
ror by not providing an adequate explanation for the major
upward departure from the Guidelines range on resentenc­
ing." Id. at 437. At the defendant's first sentencing, his advi­
sory Guidelines range was 180 to 210 months. Id. at 435. The
district court imposed a sentence of 232 months—a 10% up­
ward departure. Id. at 436. The defendant appealed, and we
vacated his sentence because the district court had errone­
ously applied a sentencing enhancement. Id. On remand,
without the sentencing enhancement, the defendant's advi­
sory Guidelines range was much lower: 33 to 41 months. Id.
Citing the same § 3553(a) factors, the district court sentenced
the defendant to 108 months' imprisonment. Id. That was a
160% upward departure. Id. The defendant again appealed,
and we agreed with him that the district court had failed to
adequately explain its sentence. Id. at 437. First, "[t]he court
provided no explanation for why consideration of the same
factors warranted a much greater departure on resentencing."
Id. at 437. Second, "regardless of the proportional difference
between the first and second sentencing departures, a 160

Case: 19-1622

Document: 61

Nos. 19-1622 & 19-1673

Filed: 12/15/2020

Pages: 15

15

district court had already sentenced the defendants on Count
1. That is because, with Count 2 gone, the sentencing calculus
changed. The advisory Guidelines range was also different,
which further altered the calculus. Put simply, there is no le­
gal basis for the defendants' argument that the district court
had to give them the same sentences on Count 1 at resentenc­
ing or explain the difference. The district court did not err by
failing to explain why the defendants' new sentences on
Count 1 did not match their initial sentences on Count 1. See
United States v. Kappes, 782 F.3d 828,864 (7th Cir. 2015) (noting
that sentencing judges need not address meritless mitigation
arguments at sentencing).
Affirmed.

Additional material
from this filing is
available in the
Clerk's Office.

